1/7/2020

Muslim Advocates Mail - RE: [Guy v. Lampert] Request for consent to ﬁle amicus brief in support of petition for certiorari

Matthew Callahan <matthew@muslimadvocates.org>

RE: [Guy v. Lampert] Request for consent to file amicus brief in support of petition
for certiorari
Amir Ali <Amir.Ali@macarthurjustice.org>
To: Matthew Callahan <matthew@muslimadvocates.org>

Tue, Dec 31, 2019 at 2:48 PM

Dear Matt, Petitioner consents. Thanks very much.

All the best,

Amir H. Ali
Supreme Court & Appellate Counsel
777 6th St. NW, 11th Floor
Washington, DC 20001
O 202 869 3434
F 202 869 3435
macarthurjustice.org

** This email may contain conﬁdential or privileged information. If you received this email in error, please notify the sender
immediately. Thank you.

From: Matthew Callahan <matthew@muslimadvocates.org>
Sent: Monday, December 30, 2019 10:28 AM
To: Amir Ali <Amir.Ali@macarthurjustice.org>
Subject: [Guy v. Lampert] Request for consent to file amicus brief in support of petition for certiorari

Mr. Ali,

My name is Matthew Callahan. I am an attorney with Muslim Advocates, a nonprofit that advocates for religious freedom
for Americans of all faiths.
I am seeking the petitioner's consent to file an amicus brief on behalf of Muslim Advocates and other organizations in
support of petitioner JonMichael Guy's petition for certiorari in the case Guy v. Lampert (Supreme Court case no. 19-725).
Please let me know if we have your consent.
Please feel free to reach out to me if you would like to discuss, either at this email address or at (202) 897-1892.

https://mail.google.com/mail/u/0?ik=ab578775fb&view=pt&search=all&permmsgid=msg-f%3A1654466012387909098&simpl=msg-f%3A1654466012387909098&…

1/2

1/7/2020

Muslim Advocates Mail - RE: [Guy v. Lampert] Request for consent to ﬁle amicus brief in support of petition for certiorari

Many thanks.

Matthew W. Callahan
Staff Attorney | Muslim Advocates
P.O. Box 34440
Washington, DC 20043
(202) 897-2622
matthew@muslimadvocates.org
(he/him/his)

Privileged/Confidential Information may be contained in this message. If you are not the intended recipient of this message (or responsible for delivery of the
message to such person), you may not copy or deliver this message to anyone. In such case, you should destroy this message and kindly notify the sender by
reply email. Please advise immediately if you do not consent to Internet email for messages of this kind.

https://mail.google.com/mail/u/0?ik=ab578775fb&view=pt&search=all&permmsgid=msg-f%3A1654466012387909098&simpl=msg-f%3A1654466012387909098&…

2/2

